                                                   NATIONAL SCIENCE FOLTNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM


1   Case Number: A05040013                                                                      Page 1 of I



                 We received an allegation1that a PI^ made a false statement to NSF regarding a submitted
         proposal.3 Specifically, the allegation was that the PI originally stated that the NSF proposal,
         submitted to NSF Biological Sciences (BIO) Directorate, was duplicative of that submitted to
         another Federal agency.4 The box on the NSF proposal cover page inquiring if the proposal was also
         submitted to another agency was check "yes." In response to the NSF science assistant5questions,
         the PI asserted that the check box was an error and the two proposals were different. The PI then
         entered a proposal revision in FastLane changing the "yes" to a "no."

                 After receiving the FastLane change, the Program Officer ( ~ 0asked) ~ the PI for a copy of his
         submission to the other agency. Upon comparing the two proposals, the PO concluded that the
         proposals were duplicative and contacted the PI. The PI explained if the two were funded he intended
         to carefully segregate the projects. Ultimately, the PI withdrew the NSF proposal.

                 Our review of the two proposals showed that 90% of the NSF project description was
         identical to the other agency proposal. The remainder consisted of materials specificallyrequired in
         NSF proposals. In response to our inquiry, the PI stated that he had checked the cover page box
         "yes" because he thought the proposals were "substantially similar." He said the science assistant
         had misunderstood his response, and he had not changed the cover page for improper purposes. He
         said the proposal described two separate projects, one he hoped to fund with NSF money and the
         second with "additional support." He suggested that his latter comment was an "allusion" to support
         from the other agency.

                 We informed the PI that the two proposals were duplicates of each other not merely
         "substantially similar." We advised the PI that the PO makes decisions about efforts to be funded
         and if a PI changes those efforts, the PI is required to submit a change of scope request that must be
         approved by the PO. Further, the PI'S "allusion" to other agency support could reasonably been
         interpreted to mean additional support from either agency.

                Despite the PI'S claim that the two proposals were merely substantially similar, and that he
         alluded to his plans to segregate the projects, the NSF proposal was withdrawn prior to review. After
         sending a letter of warning to the PI to be more careful in the future, we closed our inquiry.


         I
             Redacted.
             Redacted.
             Redacted.
             Redacted.
             Redacted.
             Redacted.


NSF OIG Form 2 (11/02)
